NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL




           SEMIANNUAL REPORT
                        TO
               THE CONGRESS
         April 1, 2009 – September 30, 2009
                         TABLE OF CONTENTS


Inspector General’s Message                   i

NCUA and Office of Inspector General
Mission Statements                            1

Introduction                                  2

NCUA Organizational Chart                     3

NCUA Highlights                               5

Federally Insured Credit Union Highlights    11
Legislative Highlights                       12
Office of the Inspector General              15
     Audit Activity                          16
     Investigative Activity                  20
     Legislative and Regulatory Reviews      24
Table I – Reports With Questioned Costs      26

Table II – Reports With Recommendations
That Funds Be Put To Better Use              27
Table III – Summary of OIG Activity          28
Index of Reporting Requirements              29
OIG Semiannual Report                                                       September 2009




                          INSPECTOR GENERAL'S MESSAGE
                               TO THE NCUA BOARD
                               AND THE CONGRESS


  With the issuance of this semiannual report, for the period from April 1, 2009,
  through September 30, 2009, the National Credit Union Administration (NCUA)
  Office of Inspector General (OIG) is looking back at what has been its most
  challenging 6 months since the inception of this office at NCUA in 1989. As we
  reported in our previous semiannual report, the OIG’s audit resources are
  overwhelmingly devoted to conducting Material Loss Reviews (MLRs). In
  addition, the unfolding events giving rise to NCUA’s unprecedented actions to
  stabilize the corporate credit union system have required my office to carry out its
  oversight responsibilities in new and critical ways. Indeed, the recent demands
  on the credit union system and the financial services industry as a whole have
  required that every NCUA employee be fully engaged in protecting the safety and
  soundness of credit unions, protecting the insured deposits of credit union
  members, and maintaining stability and public confidence in the credit union
  system. The OIG remains committed to helping NCUA successfully achieve its
  longstanding mission of facilitating the availability of credit union services to all
  eligible consumers, especially those of modest means, through a regulatory
  environment that fosters a safe and sound credit union system.

  As discussed in more detail in the body of this report, we focused the majority of
  the OIG’s resources this reporting period on conducting MLRs. Under the
  Federal Credit Union Act (Act), the OIG is required to perform a MLR when the
  National Credit Union Share Insurance Fund (NCUSIF) incurs a material loss
  with respect to an insured credit union. The Act currently defines a material loss
  as (1) exceeding the sum of $10 million and (2) an amount equal to 10 percent of
  the credit union’s total assets at the time at which the NCUA Board initiated
  assistance or was appointed liquidating agent. Our reviews determine the cause
  of the loss to the NCUSIF and assess the agency’s supervision of the credit
  union. We issued the results of one MLR during the reporting period and had 3
  others ongoing at the end of the reporting period. Based on the cumulative
  results of the reviews, we are formulating initial summary observations on the
  causes, trends, and characteristics of these material losses. We intend to



                                            i
OIG Semiannual Report                                                    September 2009




  analyze certain of those issues in more detail and make recommendations, as
  indicated, in the upcoming months.

  Another major endeavor of my office over the past reporting period has been to
  continue to foster strong working relationships with agency management,
  members of Congress, and all of our colleagues in the Inspector General
  community. At a time when our contact with all of these parties has greatly
  increased in frequency due to the rapidly changing economic environment, I am
  pleased with our efforts to keep all of them fully apprised of the important work
  we do. I especially express my gratitude to the OIG staff who, during the
  reporting period, consistently displayed their superior work ethic to successfully
  conduct the demanding work of this office.




                                William A. DeSarno
                                Inspector General




                                          ii
OIG Semiannual Report                                                   September 2009




                                   THE NCUA MISSION


  NCUA’s charge is to foster the safety and soundness of federally insured credit
  unions and to better enable the credit union community to extend the availability
  of financial services for provident and productive purposes to all who seek such
  service, while recognizing and encouraging credit unions’ historical emphasis on
  extension of financial services to those of modest means.

  The NCUA’s mission is accomplished by managing the NCUSIF in an efficient
  and prudent manner through an effective supervision program and a regulatory
  environment that encourages innovation, flexibility and continued focus on
  attracting new members and improving financial service to existing members.




                        THE OFFICE OF INSPECTOR GENERAL MISSION


  The OIG promotes the economy, efficiency, and effectiveness of NCUA
  programs and operations, and detects and deters fraud, waste, and abuse,
  thereby supporting the NCUA’s mission of monitoring and promoting safe and
  sound federally insured credit unions.

  We accomplish our mission by conducting independent audits, investigations,
  and other activities, and by keeping the NCUA Board and the Congress fully and
  currently informed of our work.




                                           1
OIG Semiannual Report                                                            September 2009




                                         INTRODUCTION


  The NCUA was established as an independent, federal regulatory agency on
  March 10, 1970.        The agency is responsible for chartering, examining,
  supervising, and insuring federal credit unions. It also insures state-chartered
  credit unions that have applied for insurance and have met National Credit Union
  Share Insurance requirements. The NCUA is funded by the credit unions it
  supervises and insures. As of June 30, 2009, the NCUA was supervising and
  insuring 4,783 federal credit unions and insuring 2,908 state-chartered credit
  unions, a total of 7,691 institutions. This represents a decline of 64 federal and
  51 state-chartered institutions since December 31, 2008, for a total decline of
  115 credit unions nationwide, primarily as a result of mergers.



                                      Federally Insured Credit Unions


                        9000
                        8000
                        7000   3173      3065        2959   2908
                        6000
                        5000
                        4000
                        3000
                               5189      5036        4847   4783
                        2000
                        1000
                           0                                            FISCUs
                               2006      2007        2008   2009
                                                                        FCUs




  The NCUA operates under the direction of a Board composed of three members.
  Board members are appointed by the President and confirmed by the Senate.
  They serve six-year terms. Terms are staggered, so that one term expires every
  two years. The Board is responsible for the management of the NCUA, including
  the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity
  Facility, and the Community Development Revolving Loan Fund.




                                                 2
OIG Semiannual Report                                                   September 2009




  The NCUA executes its program through its central office in Alexandria, Virginia
  and regional offices in Albany, New York; Alexandria, Virginia; Atlanta, Georgia;
  Austin, Texas; and Tempe, Arizona. The NCUA also operates the Asset
  Management and Assistance Center (AMAC) in Austin, Texas. Please refer to
  the NCUA organizational chart below.




                                         3
OIG Semiannual Report                                                                           September 2009




  The NCUA Board adopted its 2009 budget of $177,863,682 on November 20,
  2008. The Full-Time Equivalent (FTE) staffing authorization for 2009 is 1,016,
  representing an increase of 51 FTEs from 2008.



                                                    NCUA Budget Dollars


                                       180
                           Millions




                                       160
                                       140
                                       120
                                       100
                                        80
                                        60
                                        40
                                        20
                                         0
                                             2005    2006     2007      2008          2009




                                                    NCUA Authorized Staff
                               1050
         Employees (FTE)




                               1000




                                      950




                                      900
                                             2005     2006       2007          2008          2009




                                                             4
OIG Semiannual Report                                                   September 2009




                               NCUA HIGHLIGHTS


  NCUA Deborah Matz Assumes NCUA Chairmanship

  Deborah Matz took the oath of office and became the eighth chairman of the
  NCUA on August 24, 2009. Nominated May 21, 2009, and designated by
  President Barack Obama to become Chairman upon assumption of office,
  Chairman Matz was confirmed by the U.S. Senate on August 7, 2009.
  Chairman Matz replaced Michael E. Fryzel as Chairman. Mr. Fryzel, whose
  NCUA board term expires on August 2, 2013, will continue to serve as an NCUA
  Board member. As one member of NCUA’s three-person Board, Chairman
  Matz replaced former Vice Chairman Rodney Hood, whose term on the NCUA
  Board expired on April 10, 2009.

  Chairman Matz’s experience spans many years in the public and private sector.
  After concluding a three-year stint on the NCUA Board in October 2005, she
  was executive vice president and CEO of a Maryland credit union. Her 26-year
  government career includes 10 years on Capitol Hill as an economist with the
  Joint Economic Committee and 8 years as a senior executive at the Department
  of Agriculture, including 3 years as Deputy Assistant Secretary.

  Chairman Matz’s NCUA Board term will expire on April 10, 2015.

  NCUA Names Hunt Corporate Director

  On September 24, 2009, the NCUA Board named Scott Hunt Director of the
  Office of Corporate Credit Unions (OCCU). Hunt had been Acting Special
  Assistant to the Acting Director of the OCCU since February 20009, and prior to
  that was Acting Director of the same office.

  Since joining the agency in 1989, Hunt has served in a variety of capacities,
  including as a credit union examiner, Associate Regional Director, and Senior
  Investment Officer in the Office of Capital Markets and Planning. Hunt earned
  an undergraduate degree from Penn State University and his MBA at the
  George Mason University in Virginia. He is a CPA and CFA charter holder.

  NCUA Approves 0.15% Premium to Replenish NCUSIF

  The NCUA Board voted unanimously at its September 24, 2009, Board meeting
  to assess federally insured credit unions a 0.15% premium to replenish the
  NCUSIF and assist the Temporary Corporate Credit Union Stabilization Fund
  (Stabilization Fund), established under section 217 of the “Helping Families



                                         5
OIG Semiannual Report                                                      September 2009




  Save Their Homes Act of 2009,” in repaying the loan from the U.S. Treasury
  Department. The Board announced that the premium will be billed in mid-
  November and due in mid-December. The premium will ensure that the
  NCUSIF’s equity ratio is 1.3% and enable the Stabilization Fund to repay $310
  million of the funds it borrowed from Treasury. Credit unions with assets of less
  than $50 million will have their premiums for the NCUSIF portion based on the
  number of insured shares as of December 31, 2008, while those with more than
  $50 million in assets will have it based on the number of insured shares as of
  June 30, 2009.

  The Stabilization Fund, which Congress authorized in May 2009, following
  NCUA’s conservatorships of U.S. Central Federal Credit Union (U.S. Central)
  and Western Corporate Federal Credit Union (WesCorp), allows for the
  incremental payment of the liability incurred from the corporate stabilization
  actions.

  NCUA Chairman Matz Advises Credit Unions on Mortgage Modifications, Financial
  Trends

  In Letter to Credit Unions 09-CU-19, NCUA Chairman Matz advised credit
  unions on how best to handle the “unprecedented levels” of mortgage defaults
  that credit unions are seeing. Chairman Matz encouraged credit unions that
  originate real estate loans to work with their borrowers to modify their loans, if
  needed. Potential loan modifications suggested by the NCUA supervisory letter
  include reducing interest rates, extending the maturity date of the loan, and/or
  offering principal forbearance or forgiveness. The agency also recommended
  that credit unions consider waiving late fees or reducing or capitalizing past due
  amounts, taxes, accrued interest, insurance, or fees.

  In a separate Letter to Credit Unions 09-CU-18, NCUA noted that the real estate
  market continues to affect the credit quality of loans. However, the letter
  included a report on credit union trends that found the majority of loan growth
  over the first six months of this year came from the real estate sector. The
  report also found that while the credit union industry “remains sound,” the
  impact of the financial crisis “continues to have a negative impact on credit
  union trends.” In the letter, Chairman Matz emphasized the crucial role of
  proper risk and asset-liability management for credit unions given the difficulties
  of the current environment, and advised credit unions that originate real estate
  loans to “remain vigilant and enforce sound underwriting practices.”




                                           6
OIG Semiannual Report                                                     September 2009




  Board Member Gigi Hyland Addresses Proposed Changes to NCUA Corporate Rule
  and Audit of U.S. Central Financials

  Addressing the National Association of Federal Credit Union (NAFCU)
  Congressional Caucus on September 22, 2009, and First Carolina Corporate
  Credit Union’s Financial Conference on September 10, 2009, Board Member
  Gigi Hyland indicated that proposed revisions to NCUA’s corporate regulation,
  Part 704, would be issued by year-end. Board Member Hyland stated that
  many of the issues the proposed corporate rule will address were previewed in
  the agency’s testimony before the House Financial Services Subcommittee on
  Financial Institutions and Consumer Credit in May 2009. The proposed rule
  includes changes to capital requirements, asset liability management,
  investments, and corporate governance. Board Member Hyland stated her
  belief that corporates are integral to the credit union system and indicated that
  “it behooves the industry and the agency to carefully consider changes that will
  ensure corporates’ long-term viability.”

  At the NAFCU Caucus, Hyland also discussed the implications of the recently
  issued audit of U.S. Central’s financials, her initiative to provide a set of
  recommendations to the NCUA Board on the possible use of supplemental
  capital for credit unions, her views regarding proposed legislation on increasing
  the cap for Member Business Loans, the ongoing legislative deliberations over
  regulatory restructuring, and the possibility that Congress might create a new
  Consumer Financial Protection Agency.

  U.S. Central’s 2008 Audited Financial Statements Released

  The NCUA welcomed the September 11, 2009, release of U.S. Central’s 2008
  audited financial statements as an important step forward that provides
  essential information about the corporate’s condition and its ongoing
  conservatorship by NCUA. The Deloitte & Touche audit report asserted that
  U.S. Central, with NCUA’s assistance, is a viable institution and has ongoing
  capability to provide products and services used by many in the credit union
  system. U.S. Central’s 2008 annual report, issued in conjunction with its
  audited financial statements, also outlined the steps the institution has taken to
  stabilize its balance sheet, improve operating efficiency, and reduce costs.
  Among others, those measures include a 25 percent reduction in 2009
  expenses.




                                          7
OIG Semiannual Report                                                     September 2009




  NCUA Makes PIMCO Report Available Online

  On June 4, 2009, NCUA posted online a redacted version of a report prepared
  by the Pacific Investment Management Company, LLC (PIMCO) on behalf of
  the NCUA. In January 2009, as part of its ongoing corporate stabilization
  efforts, the NCUA Board engaged PIMCO to conduct a comprehensive analysis
  of expected credit losses for select securities held by corporate credit unions.

  In engaging PIMCO, the NCUA Board sought an independent analysis of
  corporate credit union residential mortgage backed securities (RMBS) to: (1)
  obtain an objective and independent third party’s views of potential credit
  losses, market values, and risks; and (2) obtain an additional tool to better
  assess the reliability of information developed and reported by the corporate
  credit unions.

  The market turmoil and observance of wide ranging valuations of RMBS
  securities caused NCUA to seek this form of additional due diligence to
  augment the agency’s analysis of the potential losses stemming from the
  corporate credit union portfolios and confirm the agency’s risk management
  concerns.

  Redacted versions of the report are available on the NCUA website at the
  following location: http://www.ncua.gov/GenInfo/FOIA/FOIA_Request.aspx

  Former NCUA Chairman Fryzel Testifies on Corporate Stabilization Efforts,
  Legislation

  In his capacity as then-NCUA Board Chairman, Board Member Michael Fryzel
  testified, on May 20, 2009, before the House Financial Services Subcommittee
  on Financial Institutions and Consumer Credit, concerning credit union
  stabilization. Minutes after Board Member Fryzel told the House Subcommittee
  that he supported H.R. 2351, the “Credit Union Share Insurance Stabilization
  Act,” President Obama signed S. 896 and NCUA’s Corporate Stabilization Plan
  became law, “providing a responsible, pragmatic mechanism for credit unions to
  maintain a strong federal insurance fund in a financially manageable manner,”
  according to Mr. Fryzel.

  The House and Senate bills contained nearly identical NCUA provisions,
  demonstrating the level of Congressional commitment to address credit union
  issues. Detailing contributing events, Board Member Fryzel told the House
  Subcommittee that during the summer of 2008, unrealized losses from
  investments in mortgage-backed securities placed significant pressure on
  corporate credit union liquidity. To stabilize the system, Mr. Fryzel testified,



                                          8
OIG Semiannual Report                                                     September 2009




  Congress granted NCUA’s request to secure the full $41.5 billion CLF borrowing
  authority. Since September 2008, the CLF received requests for almost $2
  billion dollars, and as of the date of his testimony, NCUA had stabilized a
  tenuous situation by infusing almost $21 billion into the corporate credit union
  system.

  To stabilize the corporate system and ensure uninterrupted member service, in
  January 2009 the NCUA Board infused $1 billion into U.S. Central, the
  wholesale corporate that provides services to other corporates, and NCUA
  guaranteed deposits in all corporates through at least September 2011. In
  March 2009, NCUA placed U.S. Central and WesCorp into conservatorship to
  preserve retail credit union deposits, enable NCUA to gain more information
  about their portfolios, and enable NCUA to take steps to mitigate future losses.

  In his testimony, then-Chairman Fryzel also outlined a broad set of corporate
  reforms initiated by NCUA to address investment authority, risk concentration,
  corporate governance, and other aspects of the corporate credit union
  operations.

  NCUA Modifies Terms of Temporary Corporate Credit Union Share Guaranty
  Program

  On April 21, 2009, NCUA modified the terms of the Temporary Corporate Credit
  Union Share Guarantee Program (TCCUSGP) to extend the program to
  accommodate a 2-year rolling expiration date and provide the option of quarterly
  extensions through December 2012. If the credit union fully uses the option, the
  final guarantee would expire on December 31, 2014.

  The NCUA Board’s action also included a revision to TCCUSGP agreements
  with corporate credit unions to eliminate ambiguities, provide greater flexibility,
  and improve operations. According to the Board, its intent was to “[s]end a clear
  signal to natural person credit unions that their investments in the corporate
  credit unions are not only safe, but also meet sound asset liability management
  principles by providing for orderly laddering of these investments.” The NCUA
  Board also emphasized the importance of maintaining the liquidity necessary to
  maintain corporate stability.

  The NCUA Board created TCCUSGP on January 28, 2009, as part of its effort to
  stabilize the corporate credit union system. TCCUSGP included an immediate,
  temporary guarantee of all shares (excluding paid-in-capital, membership capital
  accounts, and other NCUA liquidity programs) until February 28, 2009. The
  guarantee extends through December 31, 2010, for all corporate credit unions
  electing to participate in the voluntary share guarantee program.



                                          9
OIG Semiannual Report                                                   September 2009




  To stabilize cash flows and allow for an orderly laddering of investments, the
  Board approved a recommended rolling 2-year term for the guarantee program
  that operates as follows:

      •   Maximum 2-year maturity for new share deposits is covered under the
          guarantee. Existing deposits maturing before the expiration date are
          covered by the guarantee, regardless of the original term.
      •   Initial extension of the December 31, 2010, expiration date to
          September 30, 2011.
      •   At least 30 days prior to the end of each calendar quarter, starting
          September 2009, the OCCU will evaluate the need to extend the
          expiration date; and, with concurrence of the Director of Examination
          and Insurance, request that the NCUA Executive Director approve and
          announce extension of the guarantee to two years beyond the end of
          the following quarter.




                                         10
OIG Semiannual Report                                                      September 2009




                    FEDERALLY INSURED CREDIT UNION HIGHLIGHTS


  Credit unions submit quarterly call reports (financial and operational data) to the
  NCUA. An NCUA staff assessment of the June 30, 2009, quarterly call reports
  submitted by all federally insured credit unions found that key financial indicators
  show concern.

  Key Financial Indicators Showing Concern

  Looking at the June 30, 2009 quarterly statistics for major balance sheet items
  and key ratios shows the following for the nation’s 7,691 federally insured credit
  unions: assets grew 7.26 percent; net worth to assets ratio decreased from 10.62
  to 10.03 percent; the loan to share ratio decreased from 83.10 percent to 77.50
  percent; the delinquency ratio increased from 1.37 to 1.58 percent; and credit
  union return on average assets decreased from .31 percent to .28 percent.

  Savings Shifting to Money Market Accounts

  Total share accounts increased 7.99 percent. Money market shares increased
  13.72%. Regular shares comprise 26.92 percent of total share accounts; share
  certificates comprise 31.50 percent; money market shares comprise 19.87
  percent; and share draft accounts comprise 10.67 percent; and all other share
  accounts comprise 11.04 percent.

  Loans Increased Slightly

  Loan growth of .71 percent resulted in an increase in total loans by $4.04 billion.
  Total net loans of $570 billion comprise 65 percent of credit union assets. First
  mortgage real estate loans increased 3.23 percent. First mortgage real estate
  loans are the largest single asset category with $214.70 billion accounting for
  37.66 percent of all loans. Other real estate loans of $93.46 billion account for
  16.40% of all loans. Used car loans of $96.70 billion were 17.00% of all loans,
  while new car loans amounted to $79.22 billion or 13.90% of total loans. Credit
  card loans totaled $32.47 billion or 5.70% of total loans and other loans totaled
  $53.29 billion for 9.34% of total loans.




                                             11
OIG Semiannual Report                                                     September 2009




                             LEGISLATIVE HIGHLIGHTS


  House Poised to Move Forward on Regulatory Restructuring Legislation

  The House, the Senate, and the Obama administration are currently discussing
  reforms of the federal financial regulatory structure, as well as the creation of a
  single federal agency, the Consumer Financial Protection Agency (CFPA).
  President Obama, in the Financial Regulatory Reform proposal issued in June
  2009, called for the creation of the CFPA to protect consumers and investors from
  financial abuses. The proposed CFPA would have broad jurisdiction regarding
  credit, savings and payment products.

  In response, NCUA proposed the creation of an NCUA Consumer Protection
  Office in its 2010 Agency budget. The new office would create a liaison
  relationship between NCUA and relevant parties, such as the CFPA, if that
  proposed entity becomes a reality. NCUA believes the new Office would
  underscore the priority of its existing role as sole examiner and enforcer of
  consumer protection laws for credit unions.

  House Appropriation Subcommittee Retains Maximum CLF Borrowing Authority

  On June 25, 2009, a U.S. House of Representatives Appropriation Subcommittee
  voted to not place a cap and to maintain the CLF maximum, approximately $40
  billion, borrowing authority through fiscal year 2010 to ensure NCUA has a
  source of funding available to meet liquidity needs. The Subcommittee also
  approved $1 million in technical assistance for the Community Development
  Revolving Loan Fund. The measures await consideration by the full Committee.

  Federal Agencies Propose Rule to Implement S.A.F.E. Act Mortgage Loan Originator
  Registration Requirements

  NCUA joined the other Federal financial institution regulatory agencies (the
  Agencies) on June 1, 2009, in issuing for public comment proposed rules for
  public comment requiring mortgage loan originators who are employees of
  Agency-regulated institutions to meet the registration requirements of the
  S.A.F.E. Mortgage Licensing Act of 2009 (S.A.F.E. Act). The S.A.F.E. Act is Title
  5 of the “Housing and Economic Recovery Act” which President Bush signed into
  law on July 30, 2008. The S.A.F.E. Act requires the Agencies to jointly develop
  and maintain a system for registering residential mortgage loan originators who
  are employees of national and State banks, savings associations, credit unions,
  and Farm Credit system institutions, and certain of their subsidiaries. The Act




                                         12
OIG Semiannual Report                                                        September 2009




  will require licensing or registration for mortgage loan originators and will require
  registration for credit union employees who are loan originators.

  The law is part of a state and national effort to fight and prevent mortgage fraud
  as well as promote accountability in the mortgage market. Registration will
  require information about an employee, including their fingerprints, to conduct
  state and national background checks. Additionally, the law requires an
  information collection about an employee’s personal history, including
  authorization for the System to obtain any administrative, civil, or criminal
  findings by any governmental jurisdiction. The System is to be implemented one
  year after enactment of the Title.

  The “Credit Card Accountability, Responsibility, and Disclosure Act of 2009” (Credit
  CARD Act) Becomes Law

  Congress passed the “Credit Card Accountability, Responsibility, and Disclosure
  Act of 2009,” (Credit CARD Act,) on May 22, 2009, as an amendment to
  Regulation Z, the “Truth in Lending Act,” for which the Federal Reserve Board has
  rulemaking authority. The Credit CARD Act becomes effective February 22, 2010,
  but provisions regarding advance notice of rate increases and timing of payments
  became effective August 20, 2009. In late September 2009, the FRB proposed
  rules amending its Regulation Z to implement the provisions of the Credit CARD
  Act that went into effect in August.

  The changes to Regulation Z apply to credit unions, and NCUA has enforcement
  authority for federal credit unions, while the Federal Trade Commission will
  continue to have enforcement authority for state-chartered credit unions for
  Regulation Z purposes.

  With some differences, the Credit CARD Act puts requirements and limits on the
  same credit card practices that the NCUA, the Federal Reserve Board, and the
  Office of Thrift Supervision focused on in the Unfair or Deceptive Acts or Practices
  (UDAP) rule (NCUA Rules and Regulations, Part 706) issued in late 2008,
  including limiting the ability of credit card issuers to raise interest rates, limiting
  fees on subprime credit cards, and providing for fair allocation of payments and
  computation of timeliness of payments.

  Stabilization Legislation is Enacted

  On May 20, 2009, Senate bill S. 896, “The Helping Families Save Their Homes
  Act of 2009,” was signed into law by President Obama, thus making NCUA’s
  Corporate Stabilization Plan law. The legislation includes the following credit
  union provisions:



                                           13
OIG Semiannual Report                                                       September 2009




      •   Extend $250,000 deposit insurance protection to 2013;
      •   Enable credit unions to spread the cost of corporate stabilization over 7
          years;
      •   Extend replenishing the NCUSIF through premiums to 8 years;
      •   Increase NCUA borrowing authority to $6 billion; and
      •   Establish $30 billion NCUA emergency borrowing authority

  Speaking in support of the legislation, NCUA Board Member Fryzel noted that
  the law:

      •   “Preserves the strong, well-capitalized Insurance Fund that Congress,
          NCUA and the public demand;
      •   Enables credit unions to bear the costs in a more manageable way; and
      •   Complies with GAAP accounting, which is mandated by the Federal Credit
          Union Act and which must be adhered to if we are to maintain public
          confidence in the industry.”

  House Passes H.R. 3330, the “Improved Oversight by Financial Inspectors General
  Act”

  On July 29, 2009, the House of Representatives passed, without amendment and
  by voice vote, H.R. 3330, the “Improved Oversight by Financial Inspectors
  General Act.” H.R. 3330 addresses issues raised in a Subcommittee on
  Oversight and Investigations hearing held on May 5, 2009, with Inspectors
  General of several banking agencies. The legislation would amend section 38(k)
  of the Federal Deposit Insurance Act and the Federal Credit Union Act (Act) to
  raise the threshold of loss required to trigger a Material Loss Review (MLR). For
  federally insured credit union losses, the proposed amendment to the Act would
  raise the MLR threshold to $25 million (from $10 million) and 10% of a credit
  union’s total assets at the time the NCUA stepped in to provide assistance. The
  legislation also requires the NCUA Inspector General (IG) to report semiannually
  to the NCUA Board and Congress regarding (1) losses estimated to be incurred
  by the NCUSIF with respect to insured credit unions; (2) each loss that is not a
  material loss, the grounds for appointing the NCUA as liquidating agent for any
  federal or state credit union, and whether any unusual circumstances exist that
  might warrant an in-depth review of the loss; and (3) the results of the IG’s
  determinations. The proposed bill also instructs the Comptroller General to (1)
  review reports regarding material losses to the NCUSIF; and (2) make
  recommendation for improvements in the supervision of insured credit unions.

  The bill awaits action in the Senate.




                                           14
OIG Semiannual Report                                                          September 2009




                           OFFICE OF THE INSPECTOR GENERAL


  The Office of the Inspector General was established at the NCUA in 1989 under the
  authority of the Inspector General Act of 1978, as amended. The staff consists of the
  Inspector General, Counsel to the Inspector General, Deputy Inspector General for
  Audits, Director of Investigations, Auditor, two Senior Auditors, Senior Information
  Technology Auditor, and Office Manager.

  The Inspector General reports to, and is under the general supervision of, the NCUA
  Board. The Inspector General is responsible for:

          1. Conducting, supervising, and coordinating audits and investigations of all
             NCUA programs and operations;

          2. Reviewing policies and procedures to ensure efficient and economic
             operations as well as preventing and detecting fraud, waste, and abuse;

          3. Reviewing existing and proposed legislation and regulations to evaluate their
             impact on the economic and efficient administration of agency programs; and

          4. Keeping the NCUA Board and the Congress apprised of significant findings
             and recommendations.




                                             15
OIG Semiannual Report                                                      September 2009




                                   AUDIT ACTIVITY


  Audit Reports Issued

  OIG-09-01 –May 11, 2009
  Material Loss Review of Norlarco Credit Union

  The NCUA OIG conducted a Material Loss Review of Norlarco Credit Union
  (Norlarco). We reviewed Norlarco to: (1) determine the cause(s) of Norlarco’s
  failure and the resulting loss to the NCUSIF; and (2) assess NCUA’s
  supervision of the credit union.

  We determined that Norlarco management’s actions created credit, liquidity,
  compliance, and strategic risks which directly contributed to the credit union’s
  failure. Specifically, the Board of Directors (Board) and management ignored
  sound risk management principles by committing a significant portion of the
  credit union’s assets to a risky Residential Construction Lending (RCL)
  program without adequate controls in place to oversee the program’s daily
  operations.

  Significant factors in Norlarco’s failure were management’s inability to
  adequately identify, manage, and mitigate the risks within its RCL program.
  Specifically, management’s poor strategic decisions over its lending practices,
  as well as the inability to find adequate funding sources to meet
  commitments, created risks that Norlarco management did not, or could not,
  effectively manage. In addition, the risks and issues plaguing Norlarco were
  interrelated and inseparable. Eventually, management’s inability to effectively
  manage the risks its own actions had created, led to Norlarco’s failure.

  Colorado SSA and NCUA examiners determined, and the OIG agrees, that
  Norlarco management failed to perform due diligence and establish
  appropriate controls over the RCL program.     Specifically, Norlarco
  management:

  •   Failed to conduct a due diligence review of its relationship with its third-
      party vendor;
  •   Failed to adequately oversee the RCL program;
  •   Created a concentration risk by committing to fund $30 million per month
      in construction loans;
  •   Failed to develop an adequate Asset-Liability Management (ALM) policy;
      and




                                          16
OIG Semiannual Report                                                      September 2009




  •   Failed to develop adequate policies and a strategic plan to guide the credit
      union and the RCL program.

  In addition, we determined Norlarco management took undue advantage of its
  field of membership to grow the RCL program.

  We also determined Colorado SSA and NCUA examiners did not adequately
  evaluate the safety and soundness of Norlarco’s loan participation program.
  As a result, we believe SSA and NCUA examiners missed an opportunity to
  slow the RCL program’s growth, which might have mitigated the loss to the
  NCUSIF.

  Auditor Observations made as a result of our review of Norlarco’s failure
  included:

  •   Examiners did not view the participation program and the participation
      agreements as safety and soundness concerns fraught with risk.

  •   Examiners did not associate the rapid rise of loans sold through
      participations as a potential safety and soundness concern to Norlarco, or
      to the NCUSIF, but rather examiners merely viewed participations as a
      means to manage Norlarco’s balance sheet risk.




                                          17
OIG Semiannual Report                                                    September 2009




  AUDITS IN PROGRESS


  NCUA Financial Statements 2008

  Our contracting audit firm, Deloitte & Touche LLP, is working to issue its opinion
  on the 2008 financial statements of the NCUA Operating Fund, National Credit
  Union Share Insurance Fund, the Central Liquidity Facility, and the Community
  Development Revolving Loan Fund. We expect to issue our report in November
  2009.

  NCUA Financial Statements 2009

  Our contracting audit firm, KPMG, is working on the 2009 financial statements of
  the NCUA Operating Fund, National Credit Union Share Insurance Fund, the
  Central Liquidity Facility, the Community Development Revolving Loan Fund and
  the Temporary Corporate Credit Union Stabilization Fund.

  The NCUA Operating Fund was established as a revolving fund managed by the
  NCUA Board for the purpose of providing administration and service to the
  federal credit union system. The National Credit Union Share Insurance Fund
  was established as a revolving fund managed by the NCUA Board to insure
  member share deposits in all Federal credit unions and qualifying state credit
  unions. The CLF was established as a mixed ownership government corporation
  managed by the NCUA Board to improve general financial stability by meeting
  the liquidity needs of credit unions. And the Community Development Revolving
  Loan purpose is to stimulate economic activities in the communities served by
  low-income credit unions. This in turn will result in increased income, ownership
  and employment opportunities for low-wealth residents and other economic
  growth. We expect to issue our report February 15, 2010.

  Material Loss Reviews of Cal State 9, New London and Center Valley

  The FCU Act provides that a review is required when the NCUSIF incurs a
  material loss. For purposes of determining whether the NCUSIF has incurred a
  material loss with respect to an insured credit union such that the OIG must
  make a report, a loss is material if it exceeds the sum of $10,000,000, and an
  amount equal to 10 percent of the total assets of the credit union at the time at
  which the NCUA Board initiated assistance under section 208, or was appointed
  liquidating agent. In addition, the OIG may perform a material loss review on
  selected cases that caused a loss of less than $10,000,000 at the discretion of
  the Inspector General.




                                          18
OIG Semiannual Report                                                     September 2009




  The OIG was notified by NCUA that the losses incurred by Cal State 9 and
  Center Valley credit unions had exceeded the statutory requirements, triggering
  a material loss review by the OIG. New London was selected for a material loss
  review at the discretion of the Inspector General due to the fraud allegations
  involved in this case. The scope of these audits will include an analysis of the
  credit union’s transactions and activities to determine the causes of failure and a
  review of the supervision of the credit union. The review will be performed in
  accordance with Government Auditing Standards for performance audits. Our
  objectives are to determine (1) the causes of the credit union’s failure and
  resulting material loss to the share insurance fund; and (2) assess the NCUA’s
  supervision of the institution, including implementation of the Prompt Corrective
  Action requirements of the FCU Act. We expect to issue our report on Cal State
  9 and New London in the fall of 2009, and Center Valley in the beginning of
  2010.

  Independent Evaluation of the NCUA’s Compliance With the Federal Information
  Security Management Act 2009

  The OIG engaged Carson & Associates Inc. to independently evaluate its
  information systems and security program and controls for compliance with the
  Federal Information Security Management Act (FISMA), Title III of the E-
  Government Act of 2002.
  Carson & Associates Inc. is evaluating NCUA’s security program through
  interviews, documentation reviews, technical configuration reviews, social
  engineering testing, and sample testing. NCUA is being evaluated against
  standards and requirements for federal government agencies such as those
  provided through FISMA, National Institute of Standards and Technology (NIST)
  Special Publications (SPs), and OMB memoranda. We anticipate issuing the final
  report in October 2009.


  Significant Audit Recommendations on which Corrective Action Has Not
  Been Completed

  As of September 30, 2009, there were no significant audit recommendations on
  reports issued over six months ago that have not been either fully implemented
  or are in the process of implementation.




                                          19
OIG Semiannual Report                                                      September 2009




                              INVESTIGATIVE ACTIVITY


  In accordance with professional standards and guidelines established by the
  Department of Justice, the OIG conducts investigations of criminal, civil, and
  administrative wrongdoing involving agency programs, operations and personnel.
  Our investigative program focuses on activities designed to promote
  accountability, effectiveness, and efficiency, as well as fighting fraud, waste, and
  abuse in agency programs and operations. In addition to our efforts to deter
  misconduct and promote integrity awareness among agency employees, we
  investigate referrals and direct reports of employee misconduct. Investigations
  may involve possible violations of regulations regarding employee responsibilities
  and conduct, Federal criminal law, and other statutes and regulations pertaining
  to the activities of NCUA employees.

  Moreover, we receive complaints from credit union members and officials that
  involve NCUA employee program responsibilities. We examine these complaints
  to determine whether there is any indication of NCUA employee wrongdoing or
  misconduct. If not, we refer the complaint to the appropriate regional office for
  response, or close the matter if contact with the regional office indicates that the
  complaint has already been appropriately handled.

  OIG HOTLINE CONTACTS

  The OIG maintains a toll free hotline to enable employees and citizens to call
  with information about suspected waste, fraud, abuse or mismanagement
  involving agency programs or operations. We also receive complaints through
  an off-site post office box, from electronic mail, and facsimile messages. All
  information received from any of these sources is referred to as a hotline contact.
  The OIG hotline program is handled by our Office Manager, under the direction
  of our Director of Investigations. The majority of hotline contacts are from
  consumers seeking help with a problem with a credit union. These contacts are
  referred to the appropriate NCUA regional offices for assistance. During this
  reporting period, we referred 70 consumer complaints to regional offices. We
  referred 6 allegations of potential fraud at credit unions to the NCUA Office of
  General Counsel.




                                          20
OIG Semiannual Report                                                      September 2009




  INVESTIGATIONS

  False Statements / Breach of Telecommuting Agreement / Violation of Agency
  Instructions / Violations of Ethics Standards / Violation of Computer Security Rules
  of Behavior

  During this reporting period, the OIG reported on and closed its investigation into
  allegations it received in the last reporting period that an NCUA employee
  fabricated official agency documents related to her employment within the
  agency.

  The OIG’s investigation into the initial allegations concluded that the employee
  fabricated documents using her agency-issued government computer during
  work hours in violation of the Standards of Ethical Conduct for Employees of the
  Executive Branch (Ethics Standards) as well as the agency’s Computer Security
  Rules of Behavior (CSROB).

  The investigation of the initial allegations gave rise to questions about false
  statements the employee may have made to her supervisor regarding leave
  requests and a telecommuting arrangement, which began in July 2008 and
  ended in January 2009. Consequently, the OIG expanded its investigation in this
  reporting period to encompass the false statements as well as the ethics and
  agency policy violations. The investigation concluded that the employee had
  violated Ethics rules, the agency’s CSROB, made statements that amounted to a
  violation of 18 U.S.C. 1001—False Statements, breached the terms of the
  Telecommuting Agreement with the agency, and violated the agency’s Instruction
  on Telecommuting.

  The OIG issued a final report of investigation to agency management concerning
  its investigation of the initial and subsequent allegations. The employee resigned
  prior to the agency issuing its final disciplinary action decision.

  Non-Compliance with Paperwork Reduction Act

  In the previous reporting period, the OIG received two referrals from the United
  States Government Accountability Office (GAO). The referrals were based on
  information submitted anonymously to GAO’s FraudNet Operations Hotline. Both
  complaints alleged that the agency engaged in violations of the Office of
  Management and Budget (OMB) Paperwork Reduction Act (PRA). Investigations
  were conducted into both matters. In this reporting period, the OIG closed both
  matters.
  In the first instance, the investigation revealed that the agency’s information
  request for specific data from the corporate credit unions were part of the



                                          21
OIG Semiannual Report                                                        September 2009




  examination process and, therefore, were considered supervisory contacts.
  Therefore, we determined the activities to be appropriately within the scope of
  the NCUA’s existing (active) OMB information collection approval.

  In the second case, we found that the agency requested corporate credit union
  payment system activity information that went beyond the scope of its current
  OMB information collection approval. NCUA management explained that its need
  for this information was critical in light of the current financial crisis confronting
  corporate credit unions. Specifically, the agency stated that it needed to collect
  the information to, in turn, respond to information requests from the Federal
  Reserve Board on payment system operations in corporate credit unions.

  Sexual Harassment

  The OIG investigated, reported on, and closed a case involving allegations the
  OIG received that two NCUA Examiners, respectively, sexually harassed two
  credit union employees, respectively. In one instance, the OIG determined that
  the allegation was a misunderstanding between the credit union employee and
  credit union management. The named complainant explained that at no time did
  she view the Examiner’s conduct as harassing or inappropriate. The facts the
  OIG developed confirmed the lack of a viable complaint.

  In the second case, the OIG determined (1) that language used by the Examiner
  did not rise to the level of sexual harassment and (2) the charge that the
  Examiner inappropriately touched the employee’s elbow could neither be
  substantiated nor conclusively disproved. With regard to the first charge, the
  OIG reported that the Examiner’s language, while it did not constitute sexual
  harassment, could be viewed as inappropriate. The OIG issued a report of
  investigation and forwarded it to agency management.

  Office of Worker’s Compensation Fraud

  The OIG received an allegation that an employee was abusing the Office of
  Worker’s Compensation Program (OWCP). The employee retired before the
  investigation was completed. The OIG closed the case.




                                           22
OIG Semiannual Report                                                    September 2009




  Unprofessional Behavior

  The OIG received a complaint that two Examiners exhibited unprofessional
  behavior during an examination on credit union premises. In addition, the
  complaint alleged a conflict of interest on the part of one of the Examiners.

  In the case of the first Examiner, the investigation concluded that he likely made
  some or all of the comments alleged. The use of this language during an
  examination could be viewed as unprofessional and inappropriate conduct for an
  NCUA examiner.         A report of investigation was issued and referred to
  management for appropriate action.

  The information developed in the second case did not support the allegation of
  conflict of interest nor did it substantiate the allegation of unprofessional
  comments. A report of investigation was referred to management.

  Misuse of Government Email

  The OIG received a complaint forwarded from the GAO FraudNet that an
  employee was using his NCUA email improperly on a website for his personal
  business. We found that the website in question did contain several links to his
  NCUA email account. The employee was counseled on the relevant NCUA
  Instruction regarding Use of Government Property and promptly removed all
  references to his NCUA email address from the website.

  Improper Promotion

  The OIG received an allegation that an employee had been promoted outside the
  merit system promotion process. The investigation concluded that the allegation
  was without merit. The OIG intends to issue its report of investigation at the
  beginning of the next reporting period.

  Time and Attendance Fraud

  During this reporting period the OIG received an allegation of potential time and
  attendance as well as travel voucher fraud. This investigation is ongoing.

  Misconduct/Unethical Behavior

  During this reporting period the OIG received a complaint alleging misconduct
  and unethical behavior on the part of an NCUA employee and the NCUA Board
  of Directors. The OIG reviewed the matter and found the allegations to be
  without merit.



                                         23
OIG Semiannual Report                                                           September 2009




                        LEGISLATIVE AND REGULATORY REVIEWS


  Section 4(a) of the Inspector General Act requires the Inspector General to
  review existing and proposed legislation and regulations relating to the programs
  and operations of the NCUA and to make recommendations concerning their
  impact. Moreover, we routinely review proposed agency instructions and other
  policy guidance, in order to make recommendations concerning economy and
  efficiency in the administration of NCUA programs and operations and the
  prevention and detection of fraud, waste and abuse.

  During the reporting period, the OIG reviewed 26 items, including proposed and
  final legislation and regulations, Letters to Credit Unions, and agency Interpretive
  Rulings and Policy Statements (IRPS). We issued formal comments on two
  legislative items, H.R. 3330, the “Improved Oversight by Financial Inspectors
  General Act of 2009” and S. 1354, the “Improved Financial and Commodity
  Markets Oversight and Accountability Act.”

                 SUMMARY OF STATUTES AND REGULATIONS REVIEWED
       Legislation                                 Title
   P.L. 111-22       “Helping Families Save Their Homes Act of 2009”

   P.L. 111-24            “Credit Card Act of 2009”

   H.R. 3126              “Consumer Financial Protection Agency Act of 2009”

   S. 1508/H.R. 3393       “Improper Payments Elimination and Recovery Act of 2009”

   H.R. 1479              “Community Reinvestment Act (CRA)”

   H.R. 3380              “Promoting Lending to America’s Small Business Act of 2009”

                          Financial Regulatory Restructuring

   S. 976                 Paperwork Reduction Act Amendments

   H.R. 3330              “Improved Oversight by Financial Inspectors General Act of 2009”

   S. 1354/H.R. 885       “Improved Financial and Commodity Markets Oversight and
                          Accountability Act”




                                               24
OIG Semiannual Report                                                           September 2009




       Regulations/Rulings                                    Title
   12 CFR Parts 741, 748 & 749       Credit Union Reporting

   12 CFR 701                        Proposed rule: Operating Fees

   12 CFR Part 701                   Interim final rule with request for comments:
                                     Exception to the Maturity Limit on Second Mortgages
   12 CFR Part 717                   Procedures to Enhance the Accuracy and Integrity of
                                     Information Furnished to Consumer Reporting
                                     Agencies under Section 312 of the Fair and Accurate
                                     Credit Transactions Act
                                     Interagency Questions and Answers Regarding Flood
                                     Insurance with Proposed Additions
   12 CFR Part 761                   Interagency Proposed Rule to Implement S.A.F.E. Act
                                     Mortgage Loan Originator Registration Requirements
   12 CFR Part 717                   Guidelines for Furnishers of Information to Consumer
                                     Reporting Agencies
   12 CFR Part 706                   Interagency Proposed Rule – Unfair or Deceptive Acts
                                     or Practices Clarifications

        Regulations/Rulings                                    Title
   Letter to Federal Credit Unions     2009 Community Development Revolving Loan
   09-CU-09                            Fund Grant Initiatives
   Letter to Federal Credit Unions     Matters Related to “Paid-in-Capital” and
   09-CU-10                            “Membership Capital” of Corporate Credit Unions
   Letter to Federal Credit Unions     Extended Time Frame for Temporary Increase
   09-CU-11                            To Standard Maximum Share Insurance Amount
   Letter to Federal Credit Unions     Interagency Examination Procedures on Credit
   09-CU-12                            Credit Extended to Military and Their Dependents
   Letter to Federal Credit Unions     Hurricane Preparedness and Pandemic Planning
   09-CU-13
   Letter to Federal Credit Unions      Corporate Stabilization Fund Implementation
   09-CU-14
   Letter to Federal Credit Unions      Guidance on Acceptance of California Warrants
   09-CU-16
   Letter to Federal Credit Unions      Evaluating Residential Real Estate Mortgage Loan
   09-CU-19                             Modification Programs




                                               25
OIG Semiannual Report                                                         September 2009




                                      TABLE I
                          INSPECTOR GENERAL ISSUED REPORTS
                               WITH QUESTIONED COSTS
                                             Number of Questioned Unsupported
                                              Reports    Costs       Costs
          For which no management decision
    A.    had been made by the start of the
          reporting period.                            0         $0             $0

    B.    Which were issued during the
          reporting period.                            0          0             0
          Subtotals (A + B)                            0          0

    C.    For which management decision was
          made during the reporting period.            0          0             0


          (i) Dollar value of disallowed costs
                                                       0          0             0
         (ii) Dollar value of costs not allowed
                                                       0          0             0
          For which no management decision
    D.    has been made by the end of the
          reporting period.                            0          0             0
          Reports for which no management
    E.    decision was made within six months
          of issuance.                                 0          0             0

  Questioned costs are those costs the OIG has questioned because of alleged violations
  of laws, regulations, contracts, or other agreements; findings which at the time of the
  audit are not supported by adequate documentation; or the expenditure for the
  intended purpose is unnecessary or unreasonable.

  Unsupported costs (included in "Questioned Costs") are those costs the OIG has
  questioned because of the lack of adequate documentation at the time of the audit.




                                                  26
OIG Semiannual Report                                                      September 2009




                                    TABLE II
                      INSPECTOR GENERAL ISSUED REPORTS WITH
                 RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                       Number of             Dollar
                                                        Reports              Value

            For which no management decision had been
    A.
            made by the start of the reporting period.            0            $0

    B.      Which were issued during the reporting period.        0             0

                           Subtotals (A + B)                      0             0

           For which management decision was made
    C.
           during the reporting period.                           0             0

          (i) Dollar value of recommendations agreed to
              by management.                                    N/A           N/A

          (ii) Dollar value of recommendations not agreed
               to by management.                                N/A           N/A

            For which no management decision was made
    D.
            by the end of the reporting period.                   0             0

            For which no management decision was made
    E.
            within six months of issuance.                        0             0

  Recommendations that "Funds to be Put to Better Use" are those OIG
  recommendations that funds could be used more efficiently if management took actions
  to reduce outlays, de-obligate funds from programs/operations, avoid unnecessary
  expenditures noted in pre-award reviews of contracts, or any other specifically
  identified savings.




                                               27
OIG Semiannual Report                                                            September 2009




                                          TABLE III
                                  SUMMARY OF OIG ACTIVITY
                         APRIL 1, 2009 THROUGH SEPTEMBER 30, 2009
                             PART I – AUDIT REPORTS ISSUED
       Report                                                                     Date
       Number                                   Title                            Issued

      OIG-09-01   Material Loss Review of Norlarco Credit Union  5/11/2009
            PART II – AUDITS IN PROGRESS (as of September 30, 2009)

                        NCUA Financial Statement Audit 2008

                        NCUA Financial Statement Audit 2009

                        Material Loss Review of New London

                        Material Loss Review of Cal State 9 FCU

                        Material Loss Review of Center Valley
                        Independent Evaluation of The National Credit Union Administration’s
                        Compliance With The Federal Information Security Management Act
                        (FISMA) 2009




                                                28
OIG Semiannual Report                                                           September 2009




                             INDEX OF REPORTING REQUIREMENTS
   Section                               Data Required                          Page Ref
   4(a)(2)      Review of Legislation and Regulations                              24
   5(a)(1)      Significant Problems, Abuses, or Deficiencies Relating to the      16
                Administration of Programs and Operations Disclosed During
                the Reporting Period.
    5(a)(3)     Recommendations with Respect to Significant Problems,              16
                Abuses or Deficiencies.
    5(a)(3)     Significant Recommendations Described in Previous                  19
                Semiannual Reports on Which Corrective Action Has Not
                Been Completed.
    5(a)(4)     Summary of Matters Referred to Prosecution Authorities            None
                and Prosecutions Which Have Resulted.
    5(a)(5)     Summary of Each Report to the Board Detailing Cases               None
                Where Access to All Records Was Not Provided or where
                Information Was Refused.
    5(a)(6)     List of Audit Reports Issued During the Reporting Period.          28
    5(a)(7)     Summary of Particularly Significant Reports.                       19
    5(a)(8)     Statistical Tables on Audit Reports With Questioned Costs.         26
    5(a)(9)     Statistical Tables on Audit Reports With Recommendations           27
                That Funds Be Put To Better Use.
   5(a)(10)     Summary of Each Audit Report Issued Before the Start of           None
                the Reporting Period for Which No Management Decision
                Has Been Made by the End of the Reporting Period.
   5(a)(11)     Description and Explanation of Reasons for Any                    None
                Significant Revised Management Decision Made During
                the Reporting Period.
   5(a)(12)     Information Concerning Significant Management Decisions           None
                With Which the Inspector General is in Disagreement.




                                               29
